    .,
~

~
                            DEPARTMENT
                            DEPARTMENT OF    HEALTH &
                                          OF HEALTH & HUMAN SERVICES
                                                            SERVICES                                              Office
                                                                                                                  Office of
                                                                                                                         of Inspector
                                                                                                                            Inspector General
                                                                                                                                      General
"
"ó
  ~'"
    :EJI'-lli\fd'3G                                                                                               Washington, D.C. 20201
                                                                                                                  Washington, D.C.  20201
 ~""'.:l'ERviCES'Ú'"




                                                                                           JAN 16 2009

                                                                                           JAN 16  2009

                       TO:
                       TO:       Raynard S. Kington,
                                       Raynard          M.D.,
                                               S. Kington, M.D.,Ph.D.
                                                                 Ph.D.
                                               Acting Director
                                               Acting      Director



                       FROM:
                                     V~
                       FROM: oseph E. Vengri
                                               National




                                                           V~
                                               National Institutes
                                                        Institutes




                                                oseph E. Vengri
                                                                   of
    Health
                                                                       of Health



                                               Deputy Inspector General for Audit Services
                                               Deputy


                       SUBJECT: Review ofof
                                  Review  Administrative
                                             Administrativeand
                                                             andClerical
                                                                 ClericalCosts
                                                                          CostsatatDuke
                                                                                    DukeUniversity
                                                                                        University for
                                                                                                    for the
                                                                                                        the Period
                                          1, 2002, Through September 30, 2004 (A-04-05-01014)
                                  October 1,


                                       advance copy of our final report on administrative and clerical costs at Duke
                       Attached is an advance
                       University (the
                       University (the University).
                                        University). We
                                                     We wil
                                                        willissue
                                                             issuethis
                                                                   thisreport
                                                                        reportto
                                                                               to the
                                                                                   the University
                                                                                       University within
                                                                                                  within 55 business
                                                                                                            business days.
                                                                                                                     days.

                       The University
                              University is is aa private
                                                  private institution located in
                                                                              in Durham,
                                                                                 Durham, North
                                                                                            North Carolina.
                                                                                                  Carolina. During the period
                       October 1,      2002, through September 30, 2004, the University claimed
                                     1,2002,                                                   claimed reimbursement for
                       $594,104,781
                       $594,104,781       of  costs   incurred on 2,566  grants, contracts, and other agreements with
                       components
                       components of    of the
                                           theDeparment
                                                 Department
                                                        of 
   of Health and Human Services
                                                                                      Services (HHS).

                       Office
                       Office of 
of Management and Budget
                                                     Budget (OMB)
                                                              (OMB) Circular
                                                                     Circular A-21 contains specific
                                                                                               specific guidance
                                                                                                        guidance regarding
                       the treatment of charges for administrative and clerical expenses, the subject of this audit.
                       the treatment of charges for administrative and clerical expenses, the subject of
        audit. The
                                                                                                                        The
                       Circular states that the
                                            the salaries
                                                salaries of administrative
                                                            administrative and
                                                                           and clerical
                                                                               clerical staff
                                                                                        staff and
                                                                                              and items
                                                                                                   items such
                                                                                                         such as
                                                                                                              as office
                                                                                                                  offce
                       supplies, postage, local telephone costs, and memberships should normally be treated as     as
                       Facilities and Administrative costs.
                                                       costs.

                       The only specific exception to this guidance is provided for "major projects," where
                                                                                                         where direct
                                                                                                                direct
                       charging of administrative and clerical expenses maymay be
                                                                                be appropriate.
                                                                                    appropriate. "Major
                                                                                                 "Major projects"
                                                                                                         projects" are
                                                                                                                   are
                       defined in the Circular as projects that
                                                           that require an
                                                                        an "extensive amount of administrative or clerical
                                                                           "extensive  amount  of administrative or  clerical
                       support, which is significantly greater
                                                       greater than
                                                                than the routine level of
                                                                                       of such services
                                                                                               services provided
                                                                                                        provided by
                                                                                                                  by
                       academic departments."
                                 departments."

                       Our objective was to determine whether
                                                        whether the University
                                                                     University had claimed
                                                                                       claimed reimbursement
                                                                                                reimbursement forfor
                       administrative
                       administrative and
                                      and clerical
                                          clerical expenses
                                                   expenses as
                                                             as direct
                                                                direct costs
                                                                       costs to
                                                                              to grants,
                                                                                 grants, contracts,
                                                                                         contracts, and
                                                                                                    and other
                                                                                                        other agreements
                                                                                                               agreements
                       with
                       with HHS
                            HHS components in  in accordance
                                                  accordance with
                                                              with applicable
                                                                    applicable Federal
                                                                                 Federal regulations.
                                                                                          regulations.

                       Based
                       Based on
                             on our
                                our two
                                    two samples,
                                         samples, consisting
                                                   consisting of
                                                              of114
                                                                  114 charges
                                                                       charges for
                                                                                for administrative
                                                                                    administrative and
                                                                                                    and clerical
                                                                                                         clerical salaries
                                                                                                                   salaries and
                                                                                                                            and
                       120
                       120 charges for other administrative  costs, we  estimate  that the University  claimed
                                                             costs, we estimate that the University claimed
                       approximately
                       approximately $1.7 milion
                                           millionininunallowable
                                                       unallowablecharges
                                                                     chargesas
                                                                             asdirect
                                                                                 directcosts
                                                                                        coststo
                                                                                              togrants,
                                                                                                 grants,contracts,
                                                                                                         contracts,and
                                                                                                                     and other
                                                                                                                          other
                       agreements with  HHS  components    during  fiscal years 2003   and
                       agreements with HHS components during fiscal years 2003 and 2004.   2004.
Page 2 – Raynard S. Kington, M.D., Ph.D.


These unallowable claims occurred because the University had not established adequate controls
to ensure consistent compliance with the Federal requirements applicable to charges for
administrative and clerical costs. Although its “General Accounting Procedures” (GAP) often
incorporates text from the Circular, the University had largely left it to the discretion of its
individual colleges, departments, and principal investigators to interpret the GAP correctly and to
comply with the Federal requirements.

The Office of Sponsored Research did not provide adequate scrutiny for charges proposed by
colleges, departments, and principal investigators to ensure that those charges fully complied
with Federal regulations. The University’s policies essentially allowed direct charges to any
project needing any administrative or clerical support.

We are recommending that the University:

   •	 refund $1,661,011 to the Federal Government and

   •	 revise its policies as needed to comply with the requirements of OMB Circular A-21 and
      ensure consistent treatment of administrative and clerical costs.

The University partially agreed with our first recommendation and disagreed with our second
recommendation. While the University agreed that some of the questioned costs were not
supported with documentation, it stated that most of the questioned costs were allowable and that
we had not appropriately applied the allowability standards. Further, the University did not
believe that it was appropriate to estimate unallowable costs using a statistical sample. The
University stated that its policies complied with Federal requirements.

Under separate cover from its response, the University provided additional documentation for 55
unallowable items. Based on a review of this documentation, we concluded that the University
had adequately supported 24 of the 55 items, and, accordingly, we revised the total amount
recommended for recovery from $2.4 million to $1.7 million. The University’s assertions that
we had misinterpreted applicable criteria and should not have extrapolated our findings based on
statistical sampling techniques, however, did not support the University’s assertion that any
further charges were allowable. While the University had formal policies and procedures, the
results of our audit showed that those policies were not always effective.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through e-mail at
Lori.Pilcher@oig.hhs.gov or Peter J. Barbera, Regional Inspector General for Audit Services,
Region IV, at (404) 562-7750 or through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to
report number A-04-05-01014.


Attachment
Page 3 – Raynard S. Kington, M.D., Ph.D.


cc: 	   Julie L Gerberding, M.D., M.P.H.
        Director
        Centers for Disease Control and Prevention
        1600 Clifton Road, N.E.
        Mail Stop D14
        Atlanta, GA 30333

        Elizabeth M. Duke, Ph.D.
        Administrator
        Health Resources and Services Administration
        5600 Fishers Lane
        Room PKLN/14-05
        Rockville, MD 20857

        Andrew C. von Eschenbach, M.D.
        Commissioner of Food and Drugs
        Food and Drug Administration
        5600 Fishers Lane
        Rockville, MD 20857
             DEPARTMENT OF HEALTH AND HUMAN SERVICES                               Office oflnspector General
                                                                                    Office of Audit Services

                                                                                         REGION IV
                                                                             61 Forsyth Street, S.W., Suite 3T41
                                                                                  Atlanta, Georgia 30303

                                        JAN   2 t 2009
Report Number: A-04-05-01014

Richard H. Brodhead, President
Duke University
207 Allen Building
Box 90001
Durham, North Carolina 27708-0001

Dear President Brodhead:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (DIG), final report entitled "Review of Administrative and Clerical
Costs at Duke University for the Period October 1, 2002, through September 30,2004."
We will forward a copy ofthis report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date of this
letter. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended
by P.L. No. 104-231, DIG reports generally are made available to the public to the extent
the information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this
report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or contact Mary Ann Moreno, Audit Manager, at (404) 562-7770 or through e-mail at
MaryMoreno@oig.hhs.gov. Please refer to report number A-04-05-01014 in all
correspondence.

                                              Sincerely,

                                              cr~/()J:.~
                                              Peter J. Barbera
                                              Regional Inspector General for
                                               Audit Services, Region IV

Enclosure
Page 2 – President Richard H. Brodhead


Direct Reply to HHS Action Official:

Director, Division of Audit Resolution
Office of Grant and Acquisition Management
Assistant Secretary of Management and Budget
U. S. Department of Health and Human Services
Wilbur J. Cohen Building, Room 1067
330 Independence Avenue, S.W.
Washington, D.C. 20201
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  REVIEW OF ADMINISTRATIVE 

 AND CLERICAL COSTS AT DUKE 

  UNIVERSITY FOR THE PERIOD 

  OCTOBER 1, 2002, THROUGH 

     SEPTEMBER 30, 2004 





                    Daniel R. Levinson

                     Inspector General 


                      January 2009

                      A-04-05-01014

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices
 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND

Duke University (the University) is a private institution located in Durham, North Carolina.
During the period October 1, 2002, through September 30, 2004, the University claimed
reimbursement for $594,104,781 of costs incurred on 2,566 grants, contracts, and other
agreements with components of the Department of Health and Human Services (HHS).

In accepting grants, contracts, and other agreements awarded by HHS and other Federal
agencies, the University agreed to comply with regulations governing the use of Federal funds
and ensure that costs charged to those grants, contracts, and other agreements were allowable
under the cost principles established in Office of Management and Budget (OMB) Circular A-21
(the Circular). These cost principles require that, to be allowable, costs must be reasonable, be
allocable, conform to any exclusions or limitations set forth in the cost principles or sponsored
agreements, and be given consistent treatment through the application of generally accepted
accounting principles.

One limitation is set forth in section F.6.b of the Circular. This section adds specific guidance
regarding the treatment of charges for administrative and clerical expenses, the subject of this
audit, incurred within various departments of a college or university, including the following:
“The salaries of administrative and clerical staff should normally be treated as F&A [Facilities
and Administrative] costs” (section F.6.b.2) and “Items such as office supplies, postage, local
telephone costs, and memberships shall normally be treated as F&A costs” (section F.6.b.3).

The only specific exception to this guidance is provided for “major projects,” where direct
charging of administrative and clerical expenses may be appropriate. “Major projects” are
defined in section F.6.b.2 of the Circular as projects that require an “extensive amount of
administrative or clerical support, which is significantly greater than the routine level of such
services provided by academic departments.”

OBJECTIVE

Our objective was to determine whether the University had claimed reimbursement for
administrative and clerical expenses as direct costs to grants, contracts, and other agreements
with HHS components in accordance with applicable Federal regulations.

SUMMARY OF FINDINGS

Based on our two samples, consisting of 114 charges for administrative and clerical salaries and
120 charges for other administrative costs, we estimate that the University claimed
approximately $1.7 million in unallowable charges as direct costs to grants, contracts, and other
agreements with HHS components during fiscal years 2003 and 2004.

These unallowable claims occurred because the University had not established adequate controls
to ensure consistent compliance with the Federal requirements applicable to charges for



                                                  i
administrative and clerical costs. Although its “General Accounting Procedures” (GAP) often
incorporates text from the Circular, the University had largely left it to the discretion of its
individual colleges, departments, and principal investigators to interpret the GAP correctly and to
comply with the Federal requirements.

The Office of Sponsored Research did not provide adequate scrutiny for charges proposed by
colleges, departments, and principal investigators to ensure that those charges fully complied
with Federal regulations. The University’s policies essentially allowed direct charges to any
project needing any administrative or clerical support.

RECOMMENDATIONS

We recommend that the University:

   •	 refund $1,661,011 to the Federal Government and

   •	 revise its policies as needed to comply with the requirements of OMB Circular A-21 and
      ensure consistent treatment of administrative and clerical costs.

UNIVERSITY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

The University partially agreed with our first recommendation and disagreed with our second
recommendation. Although the University agreed that some of the questioned costs were not
supported with documentation, it stated that most of the questioned costs were allowable and that
we had not appropriately applied the allowability standards. Further, the University did not
believe that it was appropriate to estimate unallowable costs using a statistical sample. The
University stated that its policies complied with Federal requirements.

Under separate cover from its response, the University provided additional documentation for 55
unallowable items. Based on a review of this documentation, we concluded that the University
had adequately supported 24 of the 55 items, and, accordingly, we revised the total amount
recommended for recovery from $2.4 million to $1.7 million. The University’s assertions that
we had misinterpreted applicable criteria and should not have extrapolated our findings based on
statistical sampling techniques, however, did not support the University’s assertion that any
further charges were allowable.

While the University’s policies and procedures were generally effective, some University
employees did not always comply with them. Accordingly, the University agreed to continue the
process of revising its policies, procedures, training, monitoring, and other internal controls as
needed to ensure that the University remains fully compliant with applicable Federal criteria.

The full text of the University’s comments is included as Appendix F of this report.




                                                ii
                                                 TABLE OF CONTENTS 


                                                                                                                    Page

INTRODUCTION...........................................................................................................1 


          BACKGROUND ..................................................................................................1           

              Duke University ........................................................................................1 

              Cost Principles ..........................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ................................................1 

               Objective ...................................................................................................1 

               Scope.........................................................................................................1 

               Methodology .............................................................................................2 


FINDINGS AND RECOMMENDATIONS .................................................................3 


          DETERMINING ALLOWABILITY ...................................................................3 


          SALARY COSTS .................................................................................................5 


          OTHER ADMINISTRATIVE COSTS.................................................................6 


          UNIVERSITY HAD NOT ESTABLISHED ADEQUATE CONTROLS...........7 


          UNALLOWABLE COSTS ..................................................................................8 


          RECOMMENDATIONS......................................................................................9 


          UNIVERSITY COMMENTS AND 

           OFFICE OF INSPECTOR GENERAL RESPONSE ........................................9 

               First Recommendation ..............................................................................9 

               Second Recommendation........................................................................11 


APPENDIXES

          A ― SAMPLING METHODOLOGY: SALARY COSTS

          B ― SAMPLING METHODOLOGY: ADMINISTRATIVE COSTS
               OTHER THAN SALARIES

          C ― SAMPLE RESULTS AND ESTIMATES

          D ― UNALLOWABLE SAMPLE ITEMS: SALARIES




                                                                   iii
E ― UNALLOWABLE SAMPLE ITEMS: OTHER ADMINISTRATIVE
     COSTS

F ― UNIVERSITY COMMENTS




                          iv
                                                INTRODUCTION 


BACKGROUND

Duke University

Duke University (the University) is a private institution located in Durham, North Carolina.
During the period October 1, 2002, through September 30, 2004 (fiscal years (FY) 2003 and
2004), the University claimed reimbursement for $594,104,781 of costs incurred on 2,566 grants,
contracts, and other agreements with organizational components of the Department of Health and
Human Services (HHS).

Cost Principles

Principles for determining the allowability of costs charged to Federal grants, contracts, and
other agreements with the University and other educational institutions are set forth in Office of
Management and Budget (OMB) Circular A-21 (the Circular). These cost principles apply both
to direct costs, the expenses which are incurred solely for the performance of a particular project
or projects, and to Facilities and Administrative (F&A) costs, the indirect expenses that are
incurred for common or joint objectives of the institution and which, therefore, cannot be readily
and specifically identified with a particular project or projects. 1

In accordance with section C.4.d.1 of the Circular, each college or university is responsible for
ensuring that costs charged to Federal grants, contracts, and other agreements, both direct costs
and F&A costs, are allowable under those cost principles.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the University had claimed reimbursement for
administrative and clerical expenses as direct costs to grants, contracts, and other agreements
with HHS components in accordance with applicable Federal regulations.

Scope

Our audit covered costs claimed for reimbursement from October 1, 2002, through
September 30, 2004. The audit was limited to grants, contracts, and other agreements between
the University and organizational components of HHS, including the National Institutes of
Health (NIH), the Centers for Disease Control and Prevention (CDC), the Food and Drug
Administration, and the Health Resources and Services Administration. We did not evaluate

1
 Educational institutions are reimbursed for F&A costs through a rate or rates negotiated with the Federal
Government. Institutions with significant numbers of federally funded agreements frequently have multiple F&A
rates applicable to different functions, such as research, training, or other institutional activities. The F&A rates are
made up of two components: a facilities component and an administrative component. For FYs that begin on or
after October 1, 1991, the administrative component is limited to 26 percent of modified total direct costs.


                                                            1

charges to the University’s agreements with other Federal departments and agencies during this
audit.

Our assessment of internal controls was limited to policies and procedures related to the
University’s identification of and accounting for administrative and clerical expenses.

We conducted our audit field work intermittently between April 2005 and March 2007 at the
University’s offices in Durham, North Carolina.

Methodology

To accomplish our audit objective, we:

    •	 held discussions with University officials in the Office of Sponsored Research and the
       Office of Internal Audits;

    •	 reviewed the University’s policies and procedures related to the identification of and
       accounting for administrative and clerical expenses;

    •	 reviewed the University’s Cost Accounting Standards Board Disclosure Statement
       (DS-2); 2

    •	 identified codes assigned to administrative and clerical expenses in the University’s chart
       of accounts;

    •	 extracted transactions from the accounting records involving administrative and clerical
       expenses charged to HHS-funded grants, contracts, and other agreements;

    •	 selected and tested statistical samples of 114 administrative and clerical salary
       expenditures and 120 other administrative and clerical expenditures charged directly to
       HHS-funded grants, contracts, and other agreements (Appendixes A and B of this report)
       to determine whether the charges were allowable in accordance with cost principles;

    •	 projected the results of the statistical samples to the universes (Appendix C of this
       report); and

    •	 computed the F&A related to unallowable direct costs and projected the results to the
       universes.

We initially evaluated the sample expenditures based on documentation in the University’s
project files. Following our initial evaluation, we then asked the University’s Office of
Sponsored Research and the involved principal investigators to submit additional information

2
 Educational institutions that receive aggregate sponsored agreements totaling $25 million or more are required to
disclose their cost accounting practices by filing a disclosure statement (the DS-2). The University has submitted a
DS-2 to the HHS Division of Cost Allocation.


                                                          2

that might support that direct charges to the grants, contracts, or other agreements were
appropriate.

We met with NIH representatives in Bethesda, Maryland, during our audit to ensure a complete
understanding of applicable criteria and to discuss our tentative findings and conclusions. We
provided NIH with copies of documentation gathered during our audit so NIH officials could
independently evaluate our statistical sample of administrative and clerical expenses charged to
NIH-funded projects. NIH provided us with additional information regarding the nature of the
projects to which the sampled salary expenses were charged, and we considered that information
in reaching our conclusions on the allowability of the charges. 3

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Based on our two samples, consisting of 114 charges for administrative and clerical salaries and
120 charges for other administrative costs, we estimate that the University claimed $1.7 million 4
in unallowable charges as direct costs to grants, contracts, and other agreements with HHS
components during FYs 2003 and 2004. Of the 114 charges in our sample of administrative and
clerical salaries, we accepted 79 charges with a total value of $332,267 and determined that 35
charges with a total value of $17,829 were unallowable. Of the 120 charges in our sample of
other administrative and clerical costs, we accepted 74 charges with a total value of $97,740 and
determined that 46 charges with a total value of $10,657 were unallowable.

Unallowable claims, such as those described in our report, occurred because the University had
not established adequate controls to ensure consistent compliance with the Federal requirements
applicable to charges for administrative and clerical costs. Although its “General Accounting
Procedures” (GAP) often incorporates text from the Circular, the University had largely left it to
the discretion of its individual colleges, departments, and principal investigators to interpret the
GAP correctly and to comply with the Federal requirements. The University’s policies
essentially allowed direct charges to any project needing any administrative or clerical support.

DETERMINING ALLOWABILITY

Section C.2 of the Circular establishes four criteria governing the allowability of costs charged to
Federal grants, contracts, and other agreements. To be allowable, costs must be reasonable, be

3
 We dealt primarily with NIH during the audit because the majority of our sample charges were made to NIH
awards.
4
 This amount consists of $577,554 of salaries and fringe benefits and $175,687 of the related F&A plus $619,121 of
other administrative costs and $288,649 of the related F&A. These amounts are the lower limits of the 90-percent
confidence interval.


                                                        3

allocable, conform to any exclusions or limitations set forth in the cost principles or sponsored
agreements, and be given consistent treatment through the application of generally accepted
accounting principles.

One limitation is set forth in section F.6.b of the Circular. This section adds specific guidance
regarding the treatment of charges for administrative and clerical expenses (the subject of this
audit), incurred within various departments of a college or university, including the following:
“The salaries of administrative and clerical staff should normally be treated as F&A costs”
(section F.6.b.2) and “Items such as office supplies, postage, local telephone costs, and
memberships shall normally be treated as F&A costs” (section F.6.b.3).

The only specific exception to this guidance is provided for “major projects,” where direct
charging of administrative and clerical expenses may be appropriate. “Major projects” are
defined in section F.6.b.2 of the Circular as projects that require an “extensive amount of
administrative or clerical support, which is significantly greater than the routine level of such
services provided by academic departments.”

Exhibit C to the Circular provides examples of projects for which direct charges for
administrative and clerical expenses may be appropriate, as quoted here:

   •	 Large, complex programs such as General Clinical Research Centers, Primate Centers,
      Program Projects, environmental research centers, engineering research centers, and other
      grants and contracts that entail assembling and managing teams of investigators from a
      number of institutions.

   •	 Projects which involve extensive data accumulation, analysis and entry, surveying,
      tabulation, cataloging, searching literature; and reporting (such as epidemiological
      studies, clinical trials, and retrospective clinical records studies).

   •	 Projects that require making travel and meeting arrangements for large numbers of
      participants, such as conferences and seminars.

   •	 Projects whose principal focus is the preparation and production of manuals and large
      reports, books and monographs (excluding routine progress and technical reports).

   •	 Projects that are geographically inaccessible to normal departmental administrative
      services, such as research vessels, radio astronomy projects, and other research fields
      sites that are remote from the campus.

   •	 Individual projects requiring project-specific database management; individualized
      graphics or manuscript preparation; human or animal protocols; and multiple project-
      related investigator coordination and communications.

As stated in the Exhibit, “[t]hese examples are not exhaustive nor are they intended to imply that
direct charging of administrative or clerical salaries would always be appropriate for the
situations illustrated in the examples.”


                                                  4

SALARY COSTS

Of the 114 charges in our sample of administrative and clerical salaries, we accepted 79 charges
with a total value of $332,267. In these instances, the University provided sufficient
documentation to show that the involved grants, contracts, or cooperative agreements qualified
as major projects and that the administrative and clerical support being charged directly was
beyond the level of support normally required. For example, we concluded that an NIH project
entailing extensive data collection at multiple sites in the United States and other countries
qualified as a “major project” and, due to the nature of the funded work and the wide
geographical distribution of research sites, required administrative or clerical support above the
routine level of such services provided by academic departments.

However, we concluded that the University had not adequately documented that the other 35
charges in our sample, with a total value of $17,829, were allowable in accordance with the
requirements of the Circular. The University’s project files contained no documentation that the
involved grants, contracts, or other agreements met the definition of “major projects.” Further,
the University provided no persuasive evidence that the nature of the work performed on the
projects, or any other circumstances, justified any unusual degree of administrative and clerical
support to accomplish project objectives.

For example, in our sample, the University charged salary and fringe benefit costs for:

   •	 an administrative assistant for the NIH research project “Targeting BETAARK 1 in Heart
      Failure,”

   •	 two clerical employees for the NIH-funded grant “Molecular Biophysics Training 

      Program,” and 


   •	 a staff assistant for the NIH-funded grant “Genetic Epidemiology of Alzheimer’s Disease
      in Twins.”

The cost proposals, technical proposals, award documents, and other materials contained in the
University’s project files contained no evidence that any of these grants should have been
charged for administrative and clerical support. Further, for these 35 charges, our requests for
additional information from the University’s Office of Sponsored Research and the involved
principal investigators produced no persuasive evidence that direct charges for administrative
and clerical salaries were justified.

The principal investigator for the “Targeting BETAARK 1 in Heart Failure” project, for
example, stated that he considered clerical salaries “. . . specific to creating, copying, and
assembling the annual progress report . . .” to be allowable. However, he provided no
explanation why the production of an annual report, which is required of almost every sponsored
project awarded to the University, might be interpreted as requiring an “extensive amount of
administrative or clerical support” as required for reimbursement under section F.6.b.2 of the
Circular.




                                                 5

The principal investigator for “Genetic Epidemiology of Alzheimer’s Disease in Twins” also
cited “. . . administrative support to assist in report preparation . . .” and added that support was
justified by the need to “. . . arrange travel and process paperwork for travel expenses for the
study assessment teams who traveled biweekly . . . .” However, the detailed project budget
included only $10,811 of total staff travel costs over the year, or less than $416 per biweekly
period, and neither the University nor the principal investigator provided any evidence that the
effort involved in arranging that $416 of travel was significantly greater than the routine level of
such services provided by academic departments.

Repeatedly, principal investigators asserted that the administrative and clerical personnel whose
salaries had been charged directly to their projects were performing essential tasks specific to the
project goals. However, many of the projects had little in common with the programs and
activities listed in Exhibit C to the Circular as examples of what might actually be considered
major projects. Further, neither the University nor the principal investigators provided any
evidence that their projects required significant administrative and clerical support over and
above the level normally provided.

OTHER ADMINISTRATIVE COSTS

Of the 120 charges in our sample of other administrative and clerical costs, we accepted 74
charges with a total value of $97,740. In these instances, the University provided sufficient
documentation to show that direct charging of the involved costs was justified by the nature and
extent of the involved work or other circumstances.

For example, we concluded that direct charging for the costs of copying services was justified on
an NIH project entailing the production of spiral bound reference books for 300 teachers.
Similarly, we concluded that postage and express delivery charges were warranted on a number
of projects that required mass mailings to program participants or shipments of biological
samples.

However, the University had not adequately documented that the other 46 charges in our sample,
with a total value of $10,657, were allowable pursuant to the Circular. Neither the University
nor the principal investigators provided any persuasive evidence that the nature of the work
performed on the projects, or any other circumstances, justified charging of the involved costs
directly.

Some examples of items from our sample that we consider unallowable are:

   •	 The University charged an NIH-funded project $3,364 for a laptop computer and asserted
      that the computer was used solely for project data and allowed the employee “the
      opportunity to work from home or wherever she may be located at anytime of the day.”
      We noted, however, that the involved employee was budgeted to devote only 5 percent of
      her University time to the project charged for her computer.




                                                  6

   •	 The University charged an NIH project $193 for a swivel chair. In response to our
      request for justification, the University did not address the chair itself but pointed out that
      they had requested grant funding for miscellaneous office supplies.

   •	 The University charged an NIH grant $47 for two letter trays. When asked to explain
      circumstances related to the expense, the University asserted this was a major project that
      required “separate files for patient and site information in accordance with the scope of
      work.”

The other administrative expenses charged directly to HHS-funded grants, contracts, and other
agreements ranged from monthly local telephone line charges, pager services, and copier paper
to general office supplies such as a pair of scissors, postage, paper, pens, markers, file folders,
and envelopes. However, the project proposals, award documents, and other materials in the
University’s project files contained no evidence indicating that the nature or extent of work
carried out on the projects, or any other circumstances, required any unusual degree of
administrative and clerical support to accomplish project objectives.

UNIVERSITY HAD NOT ESTABLISHED ADEQUATE CONTROLS

Unallowable claims, such as those described above, occurred because the University had not
established adequate controls to ensure consistent compliance with the Federal requirements
applicable to charges for administrative and clerical costs. Although its GAP often incorporates
text from the Circular, the University had largely left it to the discretion of its individual
colleges, departments, and principal investigators to interpret the GAP correctly and to comply
with the Federal requirements. The University’s policies essentially allowed direct charges to
any project needing any administrative or clerical support.

As discussed earlier, Federal regulations specify that administrative and clerical costs will
generally be treated as F&A, with the only specific exception provided for “major projects”
defined in section F.6.b.2 of the Circular as projects requiring an “extensive amount of
administrative or clerical support, which is significantly greater than the routine level of such
services provided by academic departments.”

University policies (GAP 200.320 “Direct Costing on Sponsored Projects” and GAP 200.360
“Administrative and Technical Expenses for Federally Funded Project”) acknowledge “major
project” requirements and incorporate relevant wording from the regulations. However, the
policies provide no further guidance to help colleges, departments, and principal investigators
determine whether a particular project falls within the definition of a major project to which
administrative and clerical costs can appropriately be charged.

The Office of Sponsored Research did not provide adequate scrutiny for charges proposed by
colleges, departments, and principal investigators to ensure that those charges fully complied
with Federal regulations. The Office of Sponsored Research regularly allowed direct charges for
administrative and clerical costs even though the involved departments and principal
investigators could provide no evidence that their grants, contracts, and cooperative agreements




                                                  7

were major projects or that the project required any unusual degree of administrative and clerical
support to accomplish project objectives.

Correctly defining a major project is not the only area in which the University’s policies
provided limited benefit to involved departments and principal investigators in trying to
determine whether a particular charge was appropriate. For example, GAP 200.360 requires that
any administrative expenses must be “explicitly listed” in an approved budget, and a budget must
include “explicit justifications” as to why those charges are appropriate. However, the
University’s Office of Sponsored Research accepted and approved descriptions such as “office
supplies” to justify the swivel chair charged to an NIH project and required no justifications to
support charges for administrative and clerical expenses. The lack of adequate justification is
further demonstrated by the University’s immediate reversal of charges for 8 of the 120 sample
items for other administrative costs when we requested the supporting documentation.

In accordance with University policy (GAP 200.320), principal investigators were able to budget
and charge directly almost any type of administrative and clerical costs to a sponsored project.
In fact, the policy specifically listed as potentially allowable these cost items quoted below:

   •    clerical and administrative salaries; 

   •    office supplies; 

   •	   postage;
   •	   local telephone charges, modem lines, fax lines, internet access fees;
   •	   memberships;
   •	   subscriptions;
   •	   answering machine, pager, cell phones; and
   •	   items generally thought of as having multifunctional use (e.g., staplers, hole 

        punches, filing cabinets, chairs, desks, computers, printers, fax machines, 

        calculators, waste baskets, etc.). 


Without adequate controls or a policy requiring compliance with the Circular to ensure
consistent compliance with Federal requirements, the University could not ensure that
administrative and clerical expenses charged as direct costs to grants, contracts, and other
agreements with HHS components complied with the applicable Federal regulations.

UNALLOWABLE COSTS

During the period October 1, 2002, through September 30, 2004, we estimate that the
University’s unallowable claims for administrative and clerical costs resulted in overcharges to
HHS-funded grants, contracts, and other agreements. The overcharges included salary and
fringe benefit expenses for administrative and clerical personnel and other administrative and
clerical costs that should not have been charged directly to the projects, as well as the additional
F&A allocated to the projects based on those unallowable direct costs.




                                                  8

RECOMMENDATIONS

We recommend that the University:

   •	 refund $1,661,011 to the Federal Government and

   •	 revise its policies as needed to comply with the requirements of OMB Circular A-21 and
      ensure consistent treatment of administrative and clerical costs.

UNIVERSITY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

The University partially agreed with our first recommendation. Although the University agreed
that some of the questioned costs were not supported with documentation, it stated that most of
the questioned costs were allowable and that the Office of Inspector General (OIG) had not
appropriately applied the allowability standards. Further, the University did not believe that it
was appropriate to estimate unallowable costs using a statistical sample.

The University disagreed with our second recommendation. It stated that its policies complied
with Federal requirements.

First Recommendation

University Comments – Standards Applied

The University asserted that, in some cases, “. . . the findings of the draft audit report resulted
from the auditors’ incomplete or inaccurate understanding of the nature of the questioned costs”
while, in other cases, “. . . it appears that there is a difference of view between the University and
the auditors as to the standards applicable to the allowability of administrative costs . . . .”

The University identified a number of specific items recommended for disallowance in our draft
report and maintained that these costs had been incurred for “major projects,” had been incurred
in “unlike circumstances,” or were incurred for other allowable purposes in accordance with the
Circular. In addition, according to the University, many of the salary-related costs we
recommended for disallowance were for personnel who performed technical, rather than
administrative or clerical, functions.

The University excerpted statements from such sources as the NIH “Grants Policy Statement”
and the NIH “Guide for Grants and Contracts” to support its position that direct charges for
administrative and clerical costs were allowable.




                                                  9

Office of Inspector General Response – Standards Applied

Based on our analysis of the University’s comments and the additional documentation, 5 we
concluded that the University had adequately supported 24 of the 55 items, and, accordingly, we
revised the total amount recommended for recovery from $2.4 million to $1.7 million.

The University’s assertions and citations from the NIH “Grants Policy Statement,” the NIH
“Guide for Grants and Contracts,” and other documents, however, did not support the
University’s assertion that any further charges were allowable. While the University cited
excerpts from these NIH documents to justify its position that administrative and clerical costs
are explicitly allowable on many training grants, we maintain that the NIH documents were
intended to implement the overarching principles established in the Circular, not to supersede
them.

For example, the University cites volume 23, number 34 of the NIH “Guide for Grants and
Contracts” (September 23, 1994), to address the issue of consistency and to support their
claiming of administrative costs. However, the NIH “Guide for Grants and Contracts” simply
restates the basic principles from the Circular that we applied throughout our audit when
assessing the allowability of the University’s charges.

The University did not provide us with adequate evidence that the involved charges met these
basic requirements. Further, the University’s comments did not address additional guidance
presented in the NIH “Guide for Grants and Contracts,” such as the statement that
“. . .grantee institutions that have negotiated indirect cost rates based on the revised principles
contained in Section F.6.b may not directly charge administrative or clerical salaries when
inconsistent with the Circular, even though these costs may not have been deleted from the
noncompeting award.” Similarly, the University did not address the statement that “[t]he
awarding unit staff will determine, in accordance with A-21, whether or not the costs are
allocable as a direct cost under the particular project.”

The University’s references to a Direct Charge Equivalent computation also fail to persuade us
that any other direct charges for administrative and clerical costs should be considered allowable.
The Direct Charge Equivalent is used to compute bases for the allocation of indirect costs on a
University-wide basis and does not specifically relate to the University’s direct charges to
particular projects.

University Comments – Use of Extrapolation

The University contended that we should limit any liability for repayment of disallowed charges
to the actual costs related to the specific charges reviewed during our audit, rather than basing
liability upon an extrapolation of the results from our two statistical samples. The University
also asserted that we should not have projected our findings across the entire University because

5
 Under separate cover, the University provided additional documentation, including grant applications and award
documents, budget and accounting data, and other records that it had not provided during our audit fieldwork, to
support its claims for 55 of the 105 items that we identified as unallowable. In addition, the University reserved the
right to provide additional supporting documentation during the audit resolution process if required.


                                                          10

more than 70 percent of the costs recommended for disallowance related to only 4 of the 23
divisions represented in our statistical samples, and it added that many OIG audits at other
universities did not involve the use of extrapolation.

Office of Inspector General Response – Use of Extrapolation

We disagree with both the University’s positions. It is longstanding OIG policy to use statistical
sampling techniques and recommend recoveries based on estimates of our sample results when it
is conducive to our audit objectives. Because the University had charged HHS-funded projects
for more than 55,000 separate items of administrative or clerical costs during our audit period,
use of statistical sampling techniques was the only practical methodology for accomplishing our
audit objectives.

While the University is correct in stating that many previous OIG audits at Duke University, as
well as at other institutions around the country, did not involve statistical sampling, the
objectives of those particular audits did not justify statistical sampling. In many cases, we used
judgmental sampling to evaluate the reasonableness of proposed and claimed costs, or, in other
cases, we examined 100 percent of the involved costs. Extrapolations to our audit universe in
these cases were neither statistically appropriate nor required to meet our objectives.

Second Recommendation

University Comments

The University stated that its policies were not fairly represented in our draft report and that they
complied with Federal requirements.

Office of Inspector General Response

We acknowledged in our draft report that the University had formal policies and procedures in
place regarding direct charges of administrative and clerical costs to Federal grants and contracts
throughout the audit period. Those policies and procedures provided detailed guidance related to
Federal criteria applicable to charges for administrative and clerical costs.

While the University’s policies and procedures were generally effective, some University
employees did not always comply with them. Accordingly, we believe the additional
enhancements implemented by the University since completion of our audit fieldwork and
explained by the University in its comments represent a positive step toward ensuring even
greater compliance. The University agreed to continue the process of revising its policies,
procedures, training, monitoring, and other internal controls as needed to ensure that the
University remains fully compliant with applicable Federal criteria.




                                                 11

APPENDIXES

                                                                                   APPENDIX A



                               SAMPLING METHODOLOGY: 

                                    SALARY COSTS 


OBJECTIVE

Our objective was to determine whether Duke University (the University) had claimed
reimbursement for administrative and clerical expenses as direct costs to grants, contracts, and
other agreements with the Department of Health and Human Services (HHS) components in
accordance with applicable Federal regulations.

POPULATION

The population consisted of all clerical and administrative salaries for fiscal years 2003 and 2004
charged to HHS that were greater than $5. There were 4,641 transactions greater than $5,
totaling $5,494,657.17. The 4,641 transactions contained:

       •   4,627 transactions greater than $5 and less than or equal to $15,000 and
       •   14 transactions greater than $15,000.

SAMPLING UNIT

The sampling unit was a transaction.

SAMPLE DESIGN

The sample was a stratified sample. Stratum 1 consisted of all transactions greater than $5 and
less than or equal to $15,000. Stratum 2 was a certainty stratum of all transactions greater than
$15,000.

SAMPLE SIZE

We randomly selected 100 transactions that were greater than $5 and less than or equal to
$15,000. We reviewed all 14 transactions that were greater than $15,000. The total sample size
was 114.
                                                                                    APPENDIX B



                          SAMPLING METHODOLOGY: 

                  ADMINISTRATIVE COSTS OTHER THAN SALARIES


OBJECTIVE

Our objective was to determine whether the University had claimed reimbursement for
administrative and clerical expenses as direct costs to grants, contracts, and other agreements
with HHS components in accordance with applicable Federal regulations.

POPULATION

The population consisted of all administrative costs, other than salaries, for fiscal years 2003 and
2004 charged to HHS that were greater than $5. There were 50,478 transactions greater than $5,
totaling $2,417,002.15. The 50,478 transactions contained:

       •   50,458 transactions greater than $5 and less than or equal to $3,000 and
       •   20 transactions greater than $3,000.

SAMPLING UNIT

The sampling unit was a transaction.

SAMPLE DESIGN

The sample was a stratified sample. Stratum 1 consisted of transactions greater than $5 and less
than or equal to $3,000. Stratum 2 was a certainty stratum of all transactions greater than
$3,000.

SAMPLE SIZE

We randomly selected 100 transactions that were greater than $5 and less than or equal to
$3,000. We reviewed all 20 transactions that were greater than $3,000. The total sample size
was 120.
                                                                                                 APPENDIX C



                               SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

         Salaries and Facilities and Administrative Costs (F&A) Related to Salaries
                                                                                Amount of
                                                                               Unallowable
                                                               Amount of      Transactions
   Stratum         Sample        Amount of      Number of     Unallowable         – F&A
                    Size          Sample       Unallowable Transactions -       Related to
                               Transactions Transactions        Salaries         Salaries 1
> $5 - $15,000         100          $101,855              35        $17,829          $6,166
> $15,000                14          248,241               0               0                0
  Total                114          $350,096              35        $17,829          $6,166


        Other Administrative Costs and F&A Related to Other Administrative Costs
                                                                           Amount of
                                                           Amount of      Unallowable
                                                          Unallowable    Transactions –
                                                         Transactions – F&A Related
   Stratum      Sample      Amount of      Number of         Other          to Other
                 Size         Sample      Unallowable Administrative Administrative
                           Transactions Transactions         Costs            Costs
> $5 - $3,000       100            $3,880            44          $2,076           $ 964
> $3,000             20          104,517              2           8,581            3,277
  Total             120         $108,397             46         $10,657          $4,241



PROJECTION RESULTS: ESTIMATES OF UNALLOWABLE CHARGES

                                                         90-Percent Confidence Interval
                                                         Point Estimate Lower Limit                 Upper Limit
Salaries                                                       $824,950      $577,554                $1,072,345
F&A Related to Salaries                                         285,318       175,687                   394,949
Other Administrative Costs                                    1,055,882       619,121                 1,492,643
F&A Related to Other Administrative Costs                       489,849       288,649                   691,049




1
 F&A is computed based on a percentage of direct cost. For each unallowable direct cost transaction identified, we
computed the unallowable F&A related to that item based on the F&A rate as stated in the award document.
                                                                                                                                           APPENDIX D
                                                                                                                                             Page 1 of 2
                                                  UNALLOWABLE SAMPLE ITEMS: SALARIES
                                                                                                                          Indirect
                                                                                                                           Costs
Sample                                                                              Amount        Direct     Indirect    Related to
Selection       University’s                                                    Recommended       Costs        Cost     Unallowable   Total Direct +
Order           Project Code      Grant Number               Position           for Adjustment   Awarded       Rate        Costs      Indirect Costs   OPDIV


            4       3039597    5 R01 AG08549-11      Research Secretary                $150.92   $708,424      54%           $81.50         $232.42    NIH
            7       3032118    5 R01 CA089053-02     Staff Assistant                     29.14    507,589      54%            15.74           44.88    NIH
            9       3039419    5 R01 0H03979-02      Staff Assistant                    687.45    175,000      54%           371.22        1,058.67    CDC
        11          3032689    5 R01 CA81191-02      Staff Assistant                     75.76    297,683      54%            40.91          116.67    NIH
        13          3037307    5 R01 MH057448-04     Project Assistant                  609.70    418,901      54%           329.24          938.94    NIH
        14          3039424    FD-R-002154-02        Administrator                      333.41    299,941      54%           180.04          513.45    FDA
        16          3039424    FD-R-002154-03        Administrator                      319.61    299,826      54%           172.59          492.20    FDA
        17          3025003    5 T32 HD40372-02      Trainee-related expenses           484.83    288,114       8%            38.79          523.62    NIH
        19          3036344    5 R01HL0690-05        Administrative Assistant           842.04    186,959      54%           454.70        1,296.74    NIH
        21          3034862    5 R01 GM000091-58     Staff Assistant                    337.78    336,913      54%           182.40          520.18    NIH
        22          3024380    5 T32 GM007754-23     Trainee-related expenses           526.92    286,208       8%            42.15          569.07    NIH
        25          3029871    5 T15 HG00026-10      Staff Assistant                    773.36    106,798       8%            61.87          835.23    NIH
        29          3099001    5 H70 MC 00002-02     Administrative Assistant           884.07    230,606      10%            88.41          972.48    HRSA
        30          3029813    5 D09 HP 00392-02     Administrative Support             837.82    193,911       8%            67.03          904.85    HRSA
        33          3032689    5R01 CA081191-04      Staff Assistant                     72.89    282,973      54%            39.36          112.25    NIH
        34          3034862    5R01 GM000091-58      Staff Assistant                    320.46    336,913      54%           173.05          493.51    NIH
        35          3029813    5 D09 HP00392-02      Administrative Support             837.81    209,424       8%            67.02          904.83    HRSA
        41          3032907    5 R01 CA76016-05      Research Assistant                 290.88    289,431      54%           157.08          447.96    NIH
        49          3039141    5 P60 AG011268-09     Research Secretary                 152.33   1,233,085     54%            82.26          234.59    NIH
        50          3029809    5d01 HP00006-02       Project Assistant                  982.51    406,448       8%            78.60        1,061.11    HRSA
        53          3025003    5T32 HD40372-02       Trainee-related expenses           116.98    288,114       8%             9.36          126.34    NIH
        54          3039597    5 R01 AG008549-12     Staff Specialist                   151.86    480,282      54%            82.00          233.86    NIH
        55          3039424    FD-R-002154-01        Administrator                    1,564.16    298,517      54%           844.65        2,408.81    NIH
        58          3029802    5D22-HP00081-03       Position not identified            858.31    108,000       8%            68.66          926.97    HRSA
        66          3036077    5 U01 HL072289-02     Staff Assistant                    424.16    247,402      54%           229.05          653.21    NIH
                                                                                                                                             APPENDIX D
                                                                                                                                               Page 2 of 2
                                                 UNALLOWABLE SAMPLE ITEMS: SALARIES
                                                                                                                           Indirect
                                                                                                                            Costs
Sample                                                                               Amount        Direct     Indirect    Related to
Selection     University’s                                                       Recommended       Costs        Cost     Unallowable    Total Direct +
Order         Project Code       Grant Number                 Position           for Adjustment   Awarded       Rate        Costs       Indirect Costs   OPDIV


         68         3029804   1D21-HP19168-01         Position not identified            $75.73   $154,877       8%            $6.06           $81.79    HRSA
         69         3036580   5 R01 HL57354-05        Financial Analyst                  216.99    557,867      54%           117.17           334.16    NIH
         71         3029814   7 U78 HP 00023-02       Administrative Assistant           311.16    499,987       8%            24.89           336.05    HRSA
         75         3037231   5 R01 MH061744-05       Staff Specialist                 1,296.19    280,074      54%           699.94         1,996.13    NIH
         76         3036580   5 R01 HL57354-05        Financial Analyst                  231.77    557,867      54%           125.16           356.93    NIH
         85         3034862   5 R01 GM00091-57        Staff Assistant                    320.46    327,159      54%           173.05           493.51    NIH
         86         3037498   5 R01 MH49679-08        Administrative Secretary         1,032.30    365,410      54%           557.44         1,589.74    NIH
         92         3024379   5 T32 GM07184-28        Trainee-related expenses          $419.07   1,073,280      8%           $33.53           452.60    NIH
         94         3024376   5 T32 GM08487-09        Trainee-related expenses           454.48    207,516       8%            36.36           490.84    NIH
         98         3039436   UR6 CCU 420565-01       Data Technician                    805.73     96,726      54%           435.09         1,240.82    CDC


  Total Stratum 1                                                                    $17,829.04                             $6,166.37      $23,995.41


  Total Stratum 2                                                                        $0.00                                 $0.00            $0.00



 Total                                                                               $17,829.04                             $6,166.37      $23,995.41


OPDIV = Operating Division
CDC = Centers for Disease Control and Prevention
FDA = Food and Drug Administration
HRSA = Health Resources and Services Administration
NIH = National Institutes of Health
                                                                                                                                                   APPENDIX E
                                                                                                                                                     Page 1 of 2
                              UNALLOWABLE SAMPLE ITEMS: OTHER ADMINISTRATIVE COSTS
                                                                                           Amount                                 Indirect Costs
 Sample      University’s                                                                Recommended    Transferred                 Related to
Selection      Project                                                                       for          Due to       Indirect    Unallowable      Total Direct +
 Order          Code          Grant/Contract Number             Item Purchased           Adjustment        Audit      Cost Rate       Costs         Indirect Costs   OPDIV

         1     3039399      2 R37 AG00443-28A1             Scissors and desk organizer          $6.67        N             54%            $3.60            $10.27      NIH
         3     3039900      NO1MH12012                     Postage                              57.96        N             54%            31.30             89.26      NIH
         8     3027424      5 T32 MH065742-02              Envelopes                            16.54        N              8%             1.32             17.86      NIH
         9     3036520      5 U01 HL069015-03              Tray letter                          46.96        N             54%            25.36             72.32      NIH
        11     3036092      1 R01 HL074103-01              25 report covers                     16.65        N             54%             8.99             25.64      NIH
        12     3031614      5 R01 DK055808-06              Printer cartridge                    49.99        N             28%            14.00             63.99      NIH
        13     3032119      3 R01 CA091947-03S1            Paper and hole punch                  4.08        N             54%             2.20              6.28      NIH
        17     3032951      5 R37 CA011898-34              Antibiotic ointment                   6.38        N             54%             3.45              9.83      NIH
        19     3037581      5 R01 MH054846-07              Unknown                              35.92         35.92        54%            19.40             55.32      NIH
        20     3039597      5 R01 AG08549-11               Stamps                               22.20        N             54%            11.99             34.19      NIH
        21     3037240      1 R01 MH063949-01A2            Shredder                            201.13        N             54%           108.61            309.74      NIH
        23     3037220      5 R01 MH063970-02              Local phone                          39.20        N             54%            21.17             60.37      NIH
        24     3037498      5 R01 MH49679-08               Ivory paper                           6.34        N             54%             3.42              9.76      NIH
        27     3039235      5 P422 EES010356-04            Unknown                              30.31         30.31        54%            16.37             46.68      NIH
        28     3037246      5 P50 MH060451-03              Ball point pens                      15.12        N             54%             8.16             23.28      NIH
        35     3037204      1 P50 MH60451-01A2             Local phone                          30.60        N             54%            16.52             47.12      NIH
                            Information not provided
        36     3038297      because item was transferred   Courier service                      14.02         14.02        54%              7.57            21.59      NIH
        37     3037222      5 P50 MH60451-02               Local service                        30.60        N             54%             16.52            47.12      NIH
        38     3039433      U81 CCU417759-04               6 sorters                            31.68        N             54%             17.11            48.79      CDC
        39     3036380      5 R01 HL063346-04              Postage                              16.89         16.89        54%              9.12            26.01      NIH
        40     3035006      5 P01 HD039948-03              Office supplies                       6.96          6.96        54%              3.76            10.72      NIH
        41     3032460      5 U10 CA086004-05              FedEx                                13.98        N             54%              7.55            21.53      NIH
        42     3036434      5 P01 HL042444-13              Copy paper                           40.80        N             54%             22.03            62.83      NIH
        46     3036161      5 R01 HL067145-02              Appointment book                     19.75        N             54%             10.67            30.42      NIH
        47     3033415      5 M01 RR000030-42              FedEx                                13.84        N              8%              1.11            14.95      NIH
        48     3039173      5 U01 AG022132-02              FedEx                                 7.54        N             54%              4.07            11.61      NIH
        54     3099001      I H70 MC 00002-01              10 Inkjet cartridges                294.40        N             10%             29.44           323.84     HRSA
        57     3036977      5 R01 HL65222-03               FedEx                                 7.84        N             54%              4.23            12.07      NIH

        61     3036429                                     Association dues                    324.00        324.00        54%           174.96            498.96      NIH
        64     3039173      5 U01 AG022132-02              FedEx                                 8.18        N             54%             4.42             12.60      NIH
                                                                                                                                                 APPENDIX E
                                                                                                                                                   Page 2 of 2
                               UNALLOWABLE SAMPLE ITEMS: OTHER ADMINISTRATIVE COSTS
                                                                                        Amount                                  Indirect Costs
 Sample       University’s                                                            Recommended     Transferred                 Related to
Selection       Project                                                                   for           Due to       Indirect    Unallowable      Total Direct +
 Order           Code          Grant/Contract Number        Item Purchased            Adjustment         Audit      Cost Rate       Costs         Indirect Costs   OPDIV

         65     3037202      1 P50 MH60451-01A2        FedEx                                  $8.84        N             54%             $4.77           $13.61      NIH
         70     3037249      5 P50 MH060451-03         Printer cartridge                      71.39        N             54%             38.55           109.94      NIH
                                                       Shredder, pens, mouse pad,
         73     3032074      1 R01 CA100734-01A1       etc.                                 119.52         N             54%             64.54           184.06      NIH
                                                       Information not provided
        75      3036380      5 R01 HL63346-04          because item was transferred          49.13          49.13        54%            26.53             75.66      NIH
        76      3039453      5 R18 HS09706-03          Unknown                               57.53         N             54%            31.07             88.60     AHRQ
        78      3034682      5 P01 AI044975-05         Phone charges                         30.60         N             54%            16.52             47.12      NIH
        79      3030788      5 P01 A1044975-05         Pens and markers                       8.87         N             54%             4.79             13.66      NIH
        80      3032178      5 R01 CA085740-02         Envelopes                             26.43         N             54%            14.27             40.70      NIH
        84      3036069      9 RO1 HL71536-06          50 compact disks                      31.66         N             54%            17.10             48.76      NIH
        87      3036418      5 R01 HL064894-04         Hanging folders                        8.33           8.33        54%             4.50             12.83      NIH
        89      3030240      5 U01 AI046725-04         Swivel chair                         193.43         N             54%           104.45            297.88      NIH
        90      3037557      5 R01 MH57027-05          Inkjet cartridge                      25.59         N             54%            13.82             39.41      NIH
        93      3030789      5 P01 AI044975-04         Unknown                               15.75         N             54%             8.51             24.26      NIH
        96      3039507      5 U18 HS010548-05         FedEx                                 11.99         N             54%             6.47             18.46     AHRQ
Total
Stratum 1                                                                                 $2,075.59                                   $964.31         $3,039.90

        109     3032004      5 R01 CA90548-02          Computer and supplies               5,216.95        N             28%          1,460.75         6,677.70      NIH
        113     3036306      7 P01 HL36059-15          IBM laptop                          3,364.24        N             54%          1,816.69         5,180.93      NIH
Total
Stratum 2                                                                                 $8,581.19                                 $3,277.44        $11,858.63


                                                                                         $10,656.78       $485.56                   $4,241.75        $14,898.53
Total
Appendix F 

Page 1 of 19 

Appendix F 

Page 2 of 19 

Appendix F 

Page 3 of 19 

Appendix F 

Page 4 of 19 

Appendix F 

Page 5 of 19 

Appendix F 

Page 6 of 19 

Appendix F 

Page 7 of 19 

Appendix F 

Page 8 of 19 

Appendix F 

Page 9 of 19 

 Appendix F 

Page 10 of 19 

 Appendix F 

Page 11 of 19 

 Appendix F 

Page 12 of 19 

 Appendix F 

Page 13 of 19 

 Appendix F 

Page 14 of 19 

 Appendix F 

Page 15 of 19 

 Appendix F 

Page 16 of 19 

 Appendix F 

Page 17 of 19 

 Appendix F 

Page 18 of 19 

 Appendix F 

Page 19 of 19 

